No. _ _ __
JOSEPH B. SCARNATI III, ET AL.,
Petitioners,
V.

PENNSYLVANIA DEMOCRATIC PARTY, ET AL.,
R espondents.
CERTIFICATE OF COMPLIANCE WITH THE WORD LIMITATIONS

I, Anthony G. Lantagne, hereby certify that the above referenced PETITION FOR
WRIT OF CERTIORARI, as indicated by the word count feature of MS Word, and
including footnotes but excluding those parts enumerated for exclusion under the rules,
contains 2,831 words.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on this 27th day of October, 2020.

Anthon
Lantag
eg Printing, Inc.
801 E. Main Street, Suite 100
Richmond, Virginia 23219
(804) 644-0477

COMMONWEALTH OF VIRGINIA
CITY OF RICHMOND

)
)

to-wit:

Anthony G. Lantagne appeared before me this 27th day of Ox:Luu=
that the foregoing certificate is true and exact tot e best f his

tested
belief.

